Department of Homeland Security
   Ofﬁce of Inspector General

     Review of United States Coast Guard's 

    Certification of Maritime Awareness Global 

                 Network (MAGNET) 


             (Unclassified Summary) 





OIG-10-07                               October 2009
                            Office of Inspector General 

                       Review of United States Coast Guard’s 

         Certification of Maritime Awareness Global Network (MAGNET) 

                                     OIG-10-07



As required by House Committee Report 110-862, Fiscal Year 2009 Appropriations, we
reviewed the United States Coast Guard (Coast Guard) certification of the Maritime
Awareness Global Network (MAGNET). On March 9, 2009, the Coast Guard
Commandant certified that MAGNET complies with all applicable privacy laws. The
results of our review confirmed that the Coast Guard has complied will all applicable
privacy laws to protect the data processed and stored by MAGNET. However, we
determined that the Coast Guard can improve on MAGNET’s technical controls to
protect the data processed and stored by the system. The Coast Guard concurred with
both recommendations aimed at improving the security posture of MAGNET.
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
